No. 19-

IN THE

Supreme Court of the United States
____________________
CHRISTOPHER MIKELINICH and JEFFREY KEITH,

Petitioners,
against
UNITED STATES OF AMERICA,

Respondent.
____________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI

STEVEN Y. YUROWITZ, ESQ.
950 THIRD AVENUE -- 32ND FLOOR
NEW YORK, NEW YORK 10022
TELEPHONE: 212-308-7900 FAX:
212-826-3273

ATTORNEY FOR PETITIONERS

QUESTION PRESENTED
Both petitioners pled guilty and were convicted in violation of 18
U.S.C. §922(g) of possessing a weapon having previously been convicted
of a felony. Neither petitioner was advised at the Rule 11 colloquy or any
other time that the government was required to prove that they were
aware at the time they committed the offense that they possessed the
requisite knowledge of there their status as a felon. The Court of Appeals
determined that in light of Rehaif v. United States there was error but
petitioners could not demonstrate the existence of plain error. In the
view of the Court of Appeals petitioners’ challenge failed on the third
prong of plain error, i.e., they could not demonstrate that but for the error
they would not have pled guilty.

This petition raises the following

question:
Where a defendant claims his plea was not knowing and intelligent
because he was unaware of all the elements of the offense, does it matter
whether he would have pled guilty anyway?

i

TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................................................... i
TABLE OF CONTENTS ............................................................................ii
TABLE OF AUTHORITIES ..................................................................... iii
OPINIONS BELOW ................................................................................... 1
JURISDICTION ......................................................................................... 2
STATEMENT.............................................................................................. 2
REASONS FOR GRANTING THE WRIT ................................................. 5
CONCLUSION ........................................................................................... 7
APPENDICES
Appendix A Opinion of Court of Appeals in United States v. Mikelinich
Appendix B Order of Court of Appeals Denying Petition for Rehearing
in United States v. Mikelinich
Appendix C Opinion of Court of Appeals United States v. Keith
Appendix D Order of Court of Appeals Denying Petition for Rehearing
in United States v. Keith

ii

TABLE OF AUTHORITIES
Page
Cases
Bousley v. United States, 523 U.S. 614 (1998) .......................................... 6
United States v. Balde, 943 F.3d 73 (2d Cir. 2019) ................................... 6
United States v. Dominquez-Benitez, 542 U.S. 74 (2004) ......................... 5
United States v. Keith, 797 Fed.Appx. 649 (2d Cir. 2020) ........................ 1
United States v. Mikelinich, 798 Fed.Appx. 697 (2d Cir. 2020) ............... 1

iii

OPINIONS BELOW
The decision of the United States Court of Appeals for the Second
Circuit affirming the judgment of conviction for petitioner Mikelinich is
reported as United States v. Mikelinich, 798 Fed.Appx. 697 (2d Cir. 2020),
a copy of which is annexed hereto as Appendix A.
The unreported order of the United States Court of Appeals for the
Second Circuit, dated June 9, 2020, denying petitioner Mikelinich’s
petition for rehearing with a suggestion for rehearing en banc is annexed
hereto as Appendix B.
The decision of the United States Court of Appeals for the Second
Circuit affirming the judgment of conviction for petitioner Keith is
reported as United States v. Keith, 797 Fed.Appx. 649 (2d Cir. 2020), a
copy of which is annexed hereto as Appendix C.
The unreported order of the United States Court of Appeals for the
Second Circuit, dated June 9, 2020, denying petitioner Keith’s petition
for rehearing with a suggestion for rehearing en banc is annexed hereto
as Appendix D.

1

JURISDICTION
The judgments of the United States Court of Appeals sought to be
reviewed were entered on March 27, 2020 (Mikelinich) and February 21,
2020 (Keith), and the orders of that court denying petitioners’ petitions
for rehearing were both entered on June 9, 2020. As a result of the Covid19 pandemic, by General Order of this Court dated March 19, 2020,
petitioners’ time to file a petition for certiorari was extended until 150
days after the denial of a petition for rehearing. The jurisdiction of this
Court is invoked under 28 U.S.C. §1254(1).
STATEMENT
1. Petitioner Mikelinich was convicted and sentenced to a 24-month
term of imprisonment to be followed by a term of supervised release
based on his possession of a firearm notwithstanding his prior New York
State conviction in 1992 of assault, in violation of 18 U.S.C. §§922(g)(1)
and 924(a)(2). PSR¶¶ 32, 65; MA69.1

“MA__” refers to pagination in the Appendix filed in the Court of Appeals in
United States v. Mikelinich, "KA" refers to pagination in the Appendix filed in the
Court of Appeals in United States v. Keith. “PSR” refers to the Pre-Sentence
Investigation Report filed under seal in the Court of Appeals in United States v.
Mikelinich.
1

2

Petitioner Mikelinich appealed his plea and conviction arguing that
contrary to the requirements of the Fifth and Sixth Amendments, the
indictment failed to allege, as required by Rehaif v. United States, 139 S.
Ct. 2191 (2019), his knowledge of his status as a prohibited person.
Moreover, in neither the plea agreement nor during the plea proceedings
was Mikelinich ever advised that the government was required to prove
such knowledge. A14-A15, A45-47. As such Mikelinich argued on appeal
that his plea was not knowing and intelligent, in violation of his due
process rights.
The Second Circuit analyzed Mikelinich’s challenge under Rule 11
and concluded that he could not demonstrate plain error. According to
the Court of Appeals, Mikelinich’s challenge failed because he could not
establish the third prong of plain error, i.e., an affect on his substantial
rights, inasmuch as Mikelinich could not establish “a reasonable
probability that, but for the error, he would not have entered the plea.”
798 Fed.Appx. at 698.
In analyzing Mikelinich’s claim as plain error, the Court of Appeals
rejected Mikelinich’s argument that his challenge should be analyzed for
constitutional sufficiency, i.e., a plea that is not knowing and intelligent

3

violates due process and warrants relief regardless of whether the
defendant would have pled guilty even if properly advised.
2. Petitioner Keith pled guilty to two counts of possession of a
weapon as felon in violation of 18 U.S.C. §§922(g)(1) and 924(a)(2). The
district court imposed a sentence of 84 months. KA37, KA45. Petitioner
Keith timely appealed. KA61-KA62. Petitioner Keith’s indictment also
failed to allege Keith’s knowledge of his status as a prohibited person.
KA8-KA-9. Moreover, during the plea proceedings Petitioner Keith was
never advised that the government was required to prove such
knowledge. KA10-KA27. As such Petitioner Keith argued on appeal that
his plea was not knowing and intelligent.
As with Mikelinich, the Court of Appeals analyzed Petitioner
Keith’s challenge under Rule 11 and concluded that he could not
demonstrate plain error. According to the Panel, Petitioner Keith could
not meet this burden because he failed to demonstrate “a reasonable
probability that, but for the error, he would not have entered the plea.”
Order at 4-5. 797 Fed. Appx. at 652.

4

REASONS FOR GRANTING THE WRIT
In rejecting Petitioners’ Rehaif challenges the Court of Appeals
analyzed the argument only as a Rule 11 challenge which it then
determined failed to satisfy the plain error standard. But petitioners’
claim of error was not simply that the district court violated Rule 11; the
district court did violate Rule 11 (a claim the Court of Appeals appeared
to agree with), but more importantly it violated petitioners’ right to due
process inasmuch as it accepted a plea from them that was not knowing
and intelligent.
In United States v. Dominquez-Benitez, 542 U.S. 74 (2004), this
Court in requiring a defendant to demonstrate that but for the claimed
Rule 11 violation he would not have pled guilty --- the standard relied on
by the Court of Appeals here --- this Court emphasized the distinction
between a Rule 11 challenge raised by the defendant in that case and a
due process claim similar to those raised by petitioners here. Thus,
Dominquez-Benitez noted that the reasons for requiring a defendant
raising a Rule 11 challenge for the first time on appeal to demonstrate
prejudice is “complemented by the fact worth repeating that the violation
claimed was of Rule 11, not of due process.” 542 U.S. at 83.

5

Where, by contrast, as here petitioners’ claims were one of due
process, the rule of Dominquez-Benitez relied on by the Court of Appeals
and the government has no application. Indeed, in a footnote,
Dominquez-Benitez further emphasized the distinction between a Rule
11 violation and a claim that defendant’s plea was also constitutionally
invalid because it was not knowing and voluntary:
We have held, for example, that when the record
of a criminal conviction obtained by a guilty plea
contains no evidence that a defendant knew of the
rights he was putatively waiving the conviction
must be reversed. We do not suggest that such a
conviction could be saved even by overwhelming
evidence that the defendant would have pleaded
guilty regardless.
542 U.S. at 84 n. 10 (emphasis added). In other words, the deficiency
identified by the Court of Appeals here, (i.e., petitioners failed to
demonstrate that but for the error he would not have entered a plea), was
held by Dominquez Benitez to be inapplicable in the context of petitioners’
challenges.
Indeed, as this Court recognized in Bousley v. United States, 523
U.S. 614 (1998), a plea is “constitutionally invalid” where the “record
reveals that neither [the defendant], nor his counsel, nor the court
correctly understood the essential elements of the crime with which he
6

was charged.” 523 U.S. at 618-19. See also United States v. Balde, 943
F.3d 73, 95 (2d Cir. 2019). (“[w]ithout being fully informed of the nature
of the offense, and without an established factual basis for finding that
one of its elements was satisfied, it is hard to imagine how a defendant's
plea could be knowing and voluntary”). Under these circumstances,
petitioners’ pleas cannot be “saved even by overwhelming evidence that
the defendant would have pleaded guilty regardless.” DominquezBenitez, supra.
CONCLUSION
Because the decision of the Second Circuit conflicts with a prior
decision of this Court and, in view of the important constitutional rights
at stake, petitioners respectfully request that the Petition for Writ of
Certiorari be granted.
RESPECTFULLY SUBMITTED
STEVEN Y. YUROWITZ, ESQ.
950 Third Avenue -- 32nd Floor
New York, New York 10022
Tel: (212) 308-7900
Fax: (212) 826-3273
Attorney for Petitioners
Christopher Mikelinich
and Jeffrey Keith

7

APPENDIX A

United States v. Mikelinich, 798 Fed.Appx. 697 (2020)

798 Fed.Appx. 697 (Mem)
This case was not selected for
publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING
A SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.

UNITED STATES of America, Appellee,
v.
Christopher MIKELINICH,
Defendant-Appellant.
18-3860
|
March 27, 2020
Appeal from a judgment of the United States District Court
for the Northern District of New York (Mordue, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Attorneys and Law Firms
For Defendant-Appellant: Steven Y. Yurowitz, New York,
NY.
For Appellee: Carina H. Schoenberger, Assistant United
States Attorney, for Grant C. Jaquith, United States Attorney,
Northern District of New York, Syracuse, NY.
PRESENT: ROBERT A. KATZMANN, Chief Judge,
RICHARD C. WESLEY, MICHAEL H. PARK, Circuit
Judges.

SUMMARY ORDER
Defendant-appellant Christopher Mikelinich appeals from a
judgment of conviction entered by the district court (Mordue,
J.) on December 13, 2018. Mikelinich pled guilty to one count
of being a felon in possession of a firearm, in violation of 18
U.S.C. §§ 922(g)(1) and 924(a)(2), and he was sentenced to
24 months in prison, followed by three years of supervised
release. Mikelinich now argues that his conviction should
be vacated under the Supreme Court’s decision in Rehaif v.
United States, ––– U.S. ––––, 139 S. Ct. 2191, 204 L.Ed.2d
594 (2019), because the government failed to offer proof that
Mikelinich knew, at the time that he possessed the firearm
in question, that he “ha[d] been convicted in any court of[ ]
a crime punishable by imprisonment for a term exceeding
one year.” 18 U.S.C. § 922(g)(1). We assume the parties’
familiarity with the underlying facts, the procedural history
of the case, and the issues on appeal.
We recently held in United States v. Balde that a Rehaif
challenge is reviewed under the plain error standard where,
as here, the challenge was not raised before the district court.
943 F.3d 73, 95–96 (2d Cir. 2019); see also United States v.
Keith, No. 17-4015, 797 Fed.Appx. 649, 651-52, 2020 WL
865027, at *2 (2d Cir. Feb. 21, 2020). Mikelinich argues in
his reply brief that plain error review does not apply because
the district court violated his right to due process by accepting
a guilty plea that was not knowing or intelligent. But the
defendant in Balde also argued that his guilty plea was not
knowing or intelligent, and we nevertheless held that the plain
error standard applied to his Rehaif *698 challenge. See
Balde, 943 F.3d at 88, 95–96. Mikelinich tries to distinguish
Balde on the ground that it involved a Rule 11 claim rather
than a due process claim, but we do not find this distinction
relevant given that the substance of Balde’s Rule 11 claim and
Mikelinich’s due process claim is identical.
Reviewing Mikelinich’s challenge under the plain error
standard, then, we ask whether “(1) there is an error; (2) the
error is clear or obvious, rather than subject to reasonable
dispute; (3) the error affected the appellant’s substantial
rights; and (4) the error seriously affects the fairness, integrity
or public reputation of judicial proceedings.” Id. at 96.1
In addition, because his conviction arose out of a guilty
plea, Mikelinich “must establish that the violation affected
substantial rights and that there is a reasonable probability
that, but for the error, he would not have entered the plea.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Mikelinich, 798 Fed.Appx. 697 (2020)

Id. That is, Mikelinich must show a reasonable probability
that he would not have pled guilty if the government had been
required to prove that he knew, at the time that he possessed
the firearm in question, that he “ha[d] been convicted in any
court of[ ] a crime punishable by imprisonment for a term
exceeding one year.” 18 U.S.C. § 922(g)(1).
Mikelinich cannot make this showing. In his plea agreement,
Mikelinich admitted that he purchased a shotgun in April
2012 as a gift for his girlfriend and that he occasionally
carried, moved, and cleaned the shotgun while living with
his girlfriend between November 2014 and February 2017.
Mikelinich also admitted that he pled guilty in 2004 to being
a felon in possession (based on yet another prior felony)
and that he was sentenced to 15 months in prison and three
years of supervised release. Given that Mikelinich had in
fact been sentenced to more than one year in prison, there
is no “reason to believe that he would not have pleaded

guilty had he been told that the government would need to
prove that he knew he was a felon when he possessed the
firearm[ ].” Keith, 797 Fed.Appx. at 652, 2020 WL 865027,
at *2. To the contrary, the government would have relied
on Mikelinich’s prior 15-month sentence “as overwhelming
proof of his awareness that he had been convicted of a crime
punishable by imprisonment for a term exceeding one year.”
Id.2 For these reasons, Mikelinich’s plain error argument fails.
We have considered Mikelinich’s remaining arguments
and have found in them no basis for reversal. For the
reasons stated herein, the judgment of the district court is
AFFIRMED.
All Citations
798 Fed.Appx. 697 (Mem)

Footnotes

1
2

Unless otherwise indicated, in quoting cases, all internal quotation marks, alterations, emphases, footnotes, and citations
are omitted.
Mikelinich suggests that the plain error standard is satisfied because his 2004 felon-in-possession conviction, like his
conviction here, was deficient under Rehaif. But all that matters for present purposes is that Mikelinich was in fact
sentenced to more than one year in prison for his 2004 conviction, and that the government therefore easily could have
proven that Mikelinich knew that he was a felon at the time he possessed the shotgun.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

APPENDIX B

Case 18-3860, Document 109, 06/09/2020, 2857676, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
9th day of June, two thousand twenty.
________________________________________
United States of America,
Appellee,
v.

ORDER

Christopher Mikelinich,

Docket No: 18-3860

Defendant - Appellant.
_______________________________________
Appellant, Christopher Mikelinich, filed a petition for panel rehearing, or, in the
alternative, for rehearing en banc. The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

APPENDIX C

United States v. Keith, 797 Fed.Appx. 649 (2020)

797 Fed.Appx. 649
This case was not selected for
publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING
A SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.

UNITED STATES of America, Appellee,
v.
Jeffrey KEITH, aka Bangin
J, Defendant - Appellant.

Affirmed.

West Headnotes (3)
[1]

That defendant’s indictment for being a felon
in possession of firearms that did not include
felon status element did not affect the district
court’s jurisdiction over case, where indictment
charging violation of criminal code sufficed to
endow the district court with jurisdiction. 18
U.S.C.A. §§ 922(g)(1), 3231.
2 Cases that cite this headnote
[2]

Synopsis
Background: Defendant pleaded guilty in the United States
District Court for the Northern District of New York, Kahn,
J., to being a felon in possession of firearms and possession
with intent to distribute cocaine. Defendant appealed.

Holdings: The Court of Appeals held that:
[1] that defendant’s indictment for being a felon in possession
of firearms did not include felon status element did not affect
the district court’s jurisdiction;

[3] sale of both cocaine and a handgun to a confidential
informant occurred in the same transaction.

Criminal Law

Arraignment and plea

There was no reasonable probability that
defendant would not have entered guilty plea for
being a felon in possession of firearms had the
district court correctly explained that it would
have needed to prove that defendant knew he was
a felon when he possessed the firearms, and thus,
court's failure to inform defendant of the nature
of each charge before accepting guilty plea was
not plain error, where defendant had previously
been convicted of criminal sale of cocaine and
served over two years in prison, and government
would have relied on these fact as overwhelming
proof of his awareness that he had been convicted
of a crime punishable by imprisonment for a term
exceeding one year. 18 U.S.C.A. § 922(g)(1);
Fed. R. Crim. P. 11(b)(1)(G).

No. 17-4015
|
February 21, 2020

[2] there no reasonable probability that defendant would not
have entered guilty plea for being a felon in possession of
firearms had the district court correctly explained charge; and

Indictments and Charging
Instruments
Defects in charging
instrument

3 Cases that cite this headnote
[3]

Sentencing and Punishment
of other offense

Facilitation

Sale of both cocaine and a handgun to a
confidential informant occurred in the same
transaction, and thus district court's application
of four-point enhancement of defendant's
sentence for being a felon in possession of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Keith, 797 Fed.Appx. 649 (2020)

firearms and possession with intent to distribute
cocaine was not abuse of discretion, where
defendant and the informant agreed to both
sales in single meeting, and, at a subsequent
meeting, defendant transferred the firearm and
the cocaine together, in the same bag, at the same
time in exchange for a lump sum payment of
$900. Comprehensive Drug Abuse Prevention
and Control Act of 1970 § 401, 21 U.S.C.A.
§§ 841(a)(1), 841(b)(1)(C), 851; U.S.S.G. §
2K2.1(b)(6)(B).

*650 Appeal from a judgment of the United States District
Court for the Northern District of New York (Kahn, J.).
UPON DUE CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED
that the judgment entered on December 15, 2017, is
AFFIRMED.
Attorneys and Law Firms
FOR DEFENDANT-APPELLANT: Steven Y. Yurowitz,
Esq., New York, NY.
FOR APPELLEE: Carina H. Schoenberger, Assistant United
States Attorney, for Grant C. Jaquith, United States Attorney
for the Northern District of New York, Syracuse, NY.
PRESENT: John M. Walker, Jr., Pierre N. Leval, Susan L.
Carney, Circuit Judges.

SUMMARY ORDER
In July 2017, Jeffrey Keith pleaded guilty without a plea
agreement to two counts of being a felon in possession of
firearms in violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2)
and one count of possession with intent to distribute cocaine
in violation of 21 U.S.C. §§ 841(a)(1), 841(b)(1)(C), and 851.
In December 2017, the District Court entered a judgment
convicting him and sentencing him primarily to 84 months’
imprisonment.
The following statement of facts is drawn from the
Presentence Investigation Report, to which Keith did not
object and which the District Court adopted. On July 15,
2015, in Kingston, New York, a confidential informant (CI)

met with Keith and asked Keith if he had a gun for sale.
Keith responded that he did. The CI then asked if Keith had
drugs for sale, and Keith said that he would sell the CI 4.5
grams of cocaine as well. Later the same day, Keith and the
CI completed the sale, with Keith giving the CI a paper bag
containing the gun and drugs and taking $900 in cash as
payment. About one month later, on August 14, 2015, Keith
sold two more firearms to the CI in exchange for $3,100
in cash. We assume the parties’ familiarity with the other
underlying facts, the procedural history, and the arguments on
appeal, to which we refer only as necessary to explain our
decision to affirm the District Court’s judgment.
On appeal, Keith raises three challenges. First, he argues that,
because his indictment failed to allege that he knew he was
a felon when he possessed the firearms, the Supreme Court’s
decision in Rehaif v. United States, ––– U.S. ––––, 139 S. Ct.
2191, 204 L.Ed.2d 594 (2019), means that the District Court
had no jurisdiction over his prosecution under that indictment.
Second, he contends that his convictions on the two counts of
illegal firearm possession are invalid because the government
did not allege, and he did not admit in his plea allocution,
that when he possessed the firearms he knew that he was a
felon. Third, he disputes the District Court’s addition of four
points to his offense level under U.S.S.G. § 2K2.1(b)(6)(B)
for possessing a firearm “in connection with” another felony
offense. Keith first raised the two initial arguments set forth
above in a Rule 28(j) letter filed in this Court on July 25,
2019, soon after the Supreme Court’s decision in Rehaif. See
Dkt. No. 100. At the Court’s request, the parties subsequently
briefed the impact of Rehaif on these proceedings.
*651 1. Jurisdictional Challenge
[1] Keith argues first that the District Court had no
jurisdiction over his prosecution because the operative
indictment failed to allege an offense “against the laws of
the United States.” 18 U.S.C. § 3231. In Rehaif, the Supreme
Court held that the knowledge requirement of 18 U.S.C.
§ 924(a)(2) applies not only to the element of possession
of a firearm, but also to the provision’s status requirement
—that is, the status that renders unlawful the individual’s
possession of a firearm. 139 S. Ct. at 2200. In Keith’s case,
the unlawful status is that of a felon, as set forth in 18 U.S.C.
§ 922(g)(1): a person “who has been convicted in any court
of, a crime punishable by imprisonment for a term exceeding
one year.” As relevant here, Keith’s indictment charged as
follows: “On or about July 15, 2015, in Ulster County in
the Northern District of New York, the defendant, JEFFREY
KEITH, a/k/a ‘Bangin J,’ having been convicted in a court

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Keith, 797 Fed.Appx. 649 (2020)

of a crime punishable by a term of imprisonment exceeding
one year, knowingly possessed in and affecting commerce,
a firearm.” App’x 8-9. As the government concedes, the
indictment did not separately charge the element required by
Rehaif—Keith’s own knowledge of his felon status.
Our Court’s recent decision in United States v. Balde, 943
F.3d 73 (2d Cir. Nov. 13, 2019), now forecloses Keith’s
jurisdictional argument. In Balde, the government prosecuted
the defendant for illegal possession of a firearm. There,
the indictment alleged that the defendant’s possession was
unlawful under 18 U.S.C. § 922(g)(5) because of his status
as an “alien [who was] illegally or unlawfully in the United
States.” The defendant in Balde challenged the court’s
jurisdiction to adjudicate the case, making the same argument
as does Keith: that is, that “in failing to allege that he had
actual knowledge of [the status that rendered his possession
of a firearm illegal], the indictment failed to allege a federal
crime, and that this defect deprived the district court of
jurisdiction.” Balde, 943 F.3d at 88. Relying on case law
holding that an indictment that specifies a violation of a
federal criminal statute, but does not allege all of the required
elements, might be deficient on the merits but does not cause
a jurisdictional problem, we decided that “the indictment’s
failure to allege that [the defendant] knew that ... [his section
922(g) status] was not a jurisdictional defect.” Id. at 92.
We see no reason to treat Keith’s prosecution under section
922(g)(1) any differently. In both cases, the pre-Rehaif
indictment charging a violation of 18 U.S.C. § 922(g) sufficed
to endow the district court with jurisdiction. See 18 U.S.C. §
3231. Therefore, that Keith’s indictment did not include the
element required by Rehaif does not affect the District Court’s
jurisdiction over this case. Balde forecloses Keith’s argument
here.
2. Rule 11 Challenge to Guilty Plea
[2] Second, Keith contends that, for his guilty plea to have
been knowing and voluntary and therefore enforceable, the
indictment should have alleged and the plea proceedings
should have made plain that Keith knew of his status as
a felon when he unlawfully possessed the firearms. Keith
asserts that the District Court did not “inform [him] of, and
determine that [he] understands ... the nature of each charge
to which [he] is pleading,” as required by Rule 11(b)(1)(G)
of the Federal Rules of Criminal Procedure, before accepting
his plea. Keith further contends that the absence in his plea
allocution of any admission by him to the knowledge-ofstatus element establishes as a matter of law that his plea

rested on an inadequate factual basis, in contravention of
*652 Rule 11(b)(3) (“Before entering judgment on a guilty
plea, the court must determine that there is a factual basis for
the plea.”).
Because Keith did not challenge this aspect of his plea in the
District Court, we review the District Court’s actions for plain
error. Balde, 943 F.3d at 95. Plain error has four elements:
“(1) there is an error; (2) the error is clear or obvious, rather
than subject to reasonable dispute; (3) the error affected
the appellant’s substantial rights; and (4) the error seriously
affects the fairness, integrity or public reputation of judicial
proceedings.” Id. at 96 (internal quotation marks omitted).
Additionally, in “the context of plea proceedings, a defendant
must establish that ... there is a reasonable probability that,
but for the error, he would not have entered the plea.” Id.
(internal quotation marks omitted). To establish plain error
warranting vacatur, Keith must therefore show that, had the
District Court explained the additional element and required
Keith to state the factual basis for that element, there is a
“reasonable probability” that Keith would not have entered a
plea of guilty. Id.
Keith has not identified any reason to believe that he would
not have pleaded guilty had he been told that the government
would need to prove that he knew he was a felon when he
possessed the firearms. Keith had been convicted in October
2008 of criminal sale of cocaine and served over two years
in prison. The government would have relied on these fact
as overwhelming proof of his awareness that he had “been
convicted ... of a crime punishable by imprisonment for a
term exceeding one year.” 18 U.S.C. § 922(g)(1); see also
United States v. Burghardt, 939 F.3d 397, 404 (1st Cir.
2019) (affirming section 922(g)(1) conviction under similar
circumstances where there was “no reason to think that the
government would have had any difficulty at all in offering
overwhelming proof that [the defendant] knew that he had
previously been convicted of offenses punishable by more
than a year in prison”). These facts distinguish this case from
Balde, where “the nature of [the defendant’s section 922(g)]
status [as a possibly unlawfully present alien] was hotly
contested.” Balde, 943 F.3d at 97. In Balde, “we [could not]
conclude ... that the government’s arguments are so strong
that Balde would have had no plausible defense at trial and no
choice but to plead guilty, even had he known of the element
announced in Rehaif.” Id. Here, because the government
would have such persuasive proof of Keith’s awareness that
he was a convicted felon, we see no reasonable probability
that Keith would not have entered the plea had the District

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Keith, 797 Fed.Appx. 649 (2020)

Court correctly explained the elements of the offense. Keith’s
plain error argument thus fails.
3. Sentencing Challenge
[3] Section 2K2.1(b)(6)(B) of the U.S. Sentencing
Guidelines mandates a four-point increase to the otherwise
applicable base offense level if the defendant “used or
possessed any firearm or ammunition in connection with
another felony offense; or possessed or transferred any
firearm or ammunition with knowledge, intent, or reason to
believe that it would be used or possessed in connection with
another felony offense.” The comments to this Guidelines
section further explain that “[s]ubsection[ ] (b)(6)(B) ...
appl[ies] if the firearm or ammunition facilitated, or had the
potential of facilitating, another felony offense.” U.S.S.G.
§ 2K2.1 cmt. n.14(A). Keith now challenges the court’s
application of this four-point enhancement for his July 15,
2015 sale of both cocaine and a handgun to the CI.
*653 We review sentences “for abuse of discretion, a
standard that incorporates de novo review of questions of
law (including interpretation of the Sentencing Guidelines)
and clear-error review of questions of fact.” United States
v. Bonilla, 618 F.3d 102, 108 (2d Cir. 2010) (brackets
and internal quotation marks omitted). We review for clear
error the District Court’s factual determination that the
record supported finding a “connection” between the firearm
possession and the drug sale sufficient to warrant application
of the four-point enhancement under U.S.S.G. § 2K2.1.
United States v. Dodge, 61 F.3d 142, 146 (2d Cir. 1995).
Keith argues that his sale of the handgun was not made
“in connection with,” U.S.S.G. § 2K2.1(b)(6)(B), his felony
offense of possession of cocaine with intent to distribute under
21 U.S.C. §§ 841(a)(1), 841(b)(1)(C) & 851, to which he
pleaded guilty. He urges that the tandem sale of the firearm
was “merely coincidental” to the drug offense and that the
two acts were unconnected. United States v. Spurgeon, 117
F.3d 641, 644 (2d Cir. 1997) (“So long as the government
End of Document

proves by a preponderance of the evidence that the firearm
served some purpose with respect to the felonious conduct, ...
[the] ‘in connection with’ requirement is satisfied; conversely,
where the firearm’s presence is merely coincidental to that
conduct, the requirement is not met.”).
During the pendency of Keith’s appeal, however, we decided
United States v. Ryan, and held that a sentencing court “may
apply § 2K2.1(b)(6)(B)’s enhancement to a defendant who
sells a firearm and drugs in the same transaction.” 935 F.3d
40, 43 (2d Cir. 2019). In Ryan, the defendant sold heroin
and a shotgun together to a confidential informant for a
single payment of $1,600. Id. at 41-42. We explained that,
“because selling firearms and drugs in the same transaction
will normally facilitate both the drug sale and future drug
sales, ... [it] is enough to trigger the enhancement under §
2K2.1(b)(6)(B).” Id. at 42.
The record in Keith’s case adequately establishes that the
sales here are fairly treated as having occurred in “the same
transaction” under Ryan. Keith and the CI agreed to both
sales in a single meeting, and, at a subsequent meeting, Keith
transferred the firearm and the cocaine together, in the same
bag, at the same time in exchange for a lump sum payment
of $900.
Following Ryan, we conclude on these facts that the District
Court did not abuse its discretion in applying the four-point
enhancement.
***
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment entered on December 15, 2017, is AFFIRMED.
All Citations
797 Fed.Appx. 649

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

APPENDIX D

Case 17-4015, Document 145, 06/09/2020, 2857483, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
9th day of June, two thousand twenty.
________________________________________
United States of America,
Appellee,
v.

ORDER

Jeffrey Keith, AKA Bangin J,

Docket No: 17-4015

Defendant - Appellant.
_______________________________________
Appellant, Jeffrey Keith, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

